                          Testimony of Lorraine Lewis
                Inspector General, U.S. Department of Education
                                   Before the
                 Subcommittee on Oversight and Investigations
                   Committee on Education and the Workforce
                         U.S. House of Representatives

                               December 6, 1999




Good morning Mr. Chairman and members of the subcommittee. I am pleased to

testify before the Subcommittee on Oversight and Investigations, Committee on

Education and the Workforce on matters relating to the Department of

Education’s consolidated financial statements for fiscal year 1998 and related

financial issues. Accompanying me today is Steven A. McNamara, Assistant

Inspector General for Audit Services.      Also testifying today is Michael F.

Lampley, a partner with Ernst & Young LLP (E&Y). As you know, E&Y is under

contract to the Office of Inspector General (OIG) for the fiscal year 1998 and

1999 financial statement audits.



The OIG has elected to exercise its responsibility for conducting the engagement

by contracting with E&Y, an independent public accounting firm.      Under this

contract, the OIG provided oversight of E&Y’s performance of audit procedures

and preparation of reports. E&Y provided the OIG with independent reports on

the Department’s FY 1998 financial statements.




                                       1
My comprehensive testimony will include a discussion of the following areas:

      •   Fiscal Year 1998 Results of the Engagement,

      •   Comparison of FY 1998 with Previous Years,

      •   Financial Management Practices,

      •   Recommendation for Improvement, and

      •   Monitoring Implementation of Recommendations.



We all share a common goal of good government and serving the taxpayer. That

includes performing our respective functions to the best of our ability. Fulfilling

our stewardship responsibilities and promoting sound financial management is

clearly an important part of these functions. These financial issues are at the

core of good management and good government. Oversight by the Inspector

General throughout the financial audit process, and other work that we do with

respect to oversight, is a high priority in the OIG. We welcome the opportunity to

report on about our work.



As you know, the Semiannual Report is our regular means of reporting to

Congress. In our Semiannual Report No. 37, the then Acting Inspector General

in his “Message to Congress”reported that the Department had had longstanding

problems in its financial and accounting systems, with the result that a full-scope

financial statement audit would not be completed until August 1999, five months

after its Congressionally mandated due date. In Semiannual Report No. 38, the

then Acting Inspector General’s “Message to Congress” again reported that the




                                        2
Department’s financial records were not ready for audit.      He noted that the

Department’s delay in furnishing us with the trial balance and financial

statements would delay our audit for an additional two months. Our most recent

semiannual report, Semiannual Report No. 39, discusses the transmittal of the

disclaimer of opinion on the Department’s Fiscal Year 1998 financial statements.



Our communications with Congress on these financial management issues have

not been limited to the Semiannual Report. In January and December 1998, we

provided the Majority Leader of the House of Representatives, in response to his

requests, with detailed descriptions of the Department’s top ten management

problems, which included issues relating to the Department’s financial

management systems.



Today is the opportunity to present my first testimony as the new Inspector

General. As noted above, I have asked Mr. Steven McNamara of the OIG to

accompany me so that we may respond fully to any questions the Subcommittee

may ask.    I requested and received information from E&Y to assist me with

preparing my comprehensive testimony. I have incorporated their information

into my testimony, particularly those sections relating to:

       •   Scope of the Contract with Ernst & Young,

       •   Guiding Standards for this Engagement, and

       •   Detailed Results of Ernst & Young’s Procedures.




                                          3
Scope Of The Contract With Ernst & Young

The Office of the Inspector General contracted with E&Y on June 24, 1998 to

conduct an audit of the fiscal year 1998 financial statements for the purpose of

satisfying the requirements of the Government Management Reform Act

(GMRA).



In accordance with the contract, the scope of the work for fiscal year 1998 was

to:

      •   Determine and report on whether the fiscal year 1998 Principal

          Statements are presented in all material respects in accordance with OMB

          Bulletin No. 97-01, “Form and Content of Agency Financial Statements.”



      •   Determine and report on whether the Department of Education’s internal

          control structure provides reasonable assurance of achieving the internal

          control objectives described in OMB Bulletin No. 98-08.



      •   Determine and report on whether the Department of Education has

          complied with applicable Federal laws and regulations which could have a

          direct and material effect on the Principal Statements.



      •   Assess whether the information and manner of its presentation in the

          Overview of the Reporting Entity and in the Supplemental Financial and




                                            4
        Management Information sections are materially inconsistent with the

        information in the Principal Statements.



Guiding Standards For This Engagement

The engagement was to be performed in accordance with Government Auditing

Standards, issued by the Comptroller General of the United States, Office of

Management and Budget Bulletin No. 98-08, Audit Requirements for Federal

Financial Statements1, and generally accepted auditing standards issued by the

American Institute of Certified Public Accountants. According to the Statement of

Auditing Standards (SAS) No. 1, as amended by SAS No. 78 and SAS No. 82:



        “The objective of the ordinary audit of financial statements by the

        independent auditor is the expression of an opinion on the fairness

        with which they present, in all material respects, financial

        position...in    conformity       with    generally      accepted       accounting


1
  OMB Bulletin 98-08 sets forth the audit requirements for Federal Financial Statements. The Bulletin
is designed to provide the necessary audit guidance in connection with the implementation of the
CFO Act, as expanded by GMRA, and provides formal definitions for a number of technical terms
and requirements used throughout the Bulletin and formalizes a number of significant CFO Act
requirements including:

•   Defines audit scope
•   Provides agency IGs with primary responsibility for the execution of audits; allows the IG to
    provide for the execution of the audit by independent external auditors, and provides for audits to
    be performed by the Comptroller General of the United States (in consultation with the IG)
•   Provides guidance on the IG’s role, such as to:
    - Ensure that audits are performed and audit reports completed in a timely manner and in
        accordance with the requirements of this Bulletin. This responsibility pertains to audits
        conducted directly by IG staff and audits conducted by independent auditors under
        contract.
    - Provide technical advice and liaison to agency officials and independent external
        auditors.
    - Obtain or make quality control reviews of audits made by independent external auditors
        and provide the results, when appropriate, to other interested organizations.


                                                  5
       principles.... These standards require him to state whether, in his

       opinion, the financial statements are presented in conformity with

       generally accepted accounting principles...”



In short, the auditor has a responsibility to obtain reasonable but not absolute

assurance about whether the financial statements are free of material

misstatement.



SAS No. 1 also states that the financial statements are management's

responsibility.   Management is responsible for adopting sound accounting

policies and for establishing and maintaining internal control that will, among

other things, record, process, summarize, and report transactions (as well as

events and conditions) consistent with management's assertions embodied in the

financial statements. The entity's transactions and the related assets, liabilities,

and equity are within the direct knowledge and control of management. Thus,

the fair presentation of financial statements in conformity with generally accepted

accounting principles is an implicit and integral part of management's

responsibility.



Pursuant to GMRA, audited financial statements must be provided to OMB by

March 1 of the fiscal year following the fiscal year under audit. To accomplish

this objective, engagement planning typically begins in mid-May of the year to be

audited. Interim procedures are performed during the months of June through




                                         6
mid-August, with the auditors returning in mid-October after the Federal agency

has closed its books. The year-end audit procedures are completed by February

of the following fiscal year. Finally, the reporting phase of the audit is completed

by March 1.



With respect to the Department of Education, the initial planned timeline was to

conduct the audit in the same process as described above, with the exception of

planning, which would be performed concurrently with interim testing. Early in

the process, it became evident that the Department did not believe it could meet

the timelines identified in the contract.



Fiscal Year 1998 Results Of The Engagement

I transmitted the final FY1998 reports prepared by E&Y to the Secretary on

November 18, 1999. The reports were issued late because the Department’s

financial statements and records were not ready to be audited. The work

performed resulted in a report containing a disclaimer of opinion on the financial

statements due to weaknesses with the financial system. Weaknesses included

the system’s inability to perform a year-end closing process or produce

automated consolidated financial statements. In addition, the Department did not

adequately    perform     reconciliations       and   could   not   provide   sufficient

documentation supporting transactions.




                                            7
A Report on Internal Controls was also issued documenting seven weaknesses.

The three most serious of these were as follows: the accounting system’s

inability to perform a year-end closing process or produce automated

consolidated financial statements; the lack of proper or timely reconciliations of

the accounting records; and, deficiencies in controls surrounding information

systems.



Finally, a Report on Compliance with Laws and Regulations was issued

documenting two instances of noncompliance. These were: failure to meet the

March 1, 1999 statutory deadline for submission of audited financial statements

to OMB, as required by the GMRA; and, and non-compliance with the system

requirements of the Federal Financial Management Improvement Act (FFMIA) of

1996.



The OIG began the audit process with the Department and our new contract

auditors, E&Y, in July 1998. However, by early August, the then Chief Financial

Officer informed the OIG that the Department’s books and records would not be

ready for audit until February 1999. As a result, the audit was suspended and

did not begin again until February 1999. In the interim, the OIG and E&Y met

monthly with the Department to stay informed of the progress of financial

statement preparation efforts.




                                        8
As described in the Report on Internal Control, financial systems weaknesses

and management turnover in the Office of Chief Financial Officer combined to

make the preparation of financial statements a formidable task. From February

until early June, work was performed where possible by E&Y, while working with

the Department to obtain final versions of a trial balance, the financial

statements, and notes thereto. In mid-June, the OIG, E&Y and the Department

agreed the focus should be changed to supporting an opinion on the Balance

Sheet and Statements of Net Cost and Changes in Net Position, with all

supporting documentation to be received by July 16th.       In early July it was

decided to further narrow the focus to the Balance Sheet only.                The

consequences of this was, at best, the Department would not receive an opinion

on at least four of the other statements.      None of these approaches were

successful and as a result, the OIG recommended suspending work on the FY

1998 financial statements. This was mutually agreed to, by the Department, E&Y

and the OIG, that continuing the FY 1998 engagement would adversely affect the

audit of the FY 1999 statements.     The end of field work was September 15,

1999. Draft reports were provided to the OIG and the Department for review and

comment. This process was completed on November 18, 1999 with the issuance

and transmittal of the final reports. The Acting Chief Financial Officer indicated

that with regard to the issues in the reports, the Department was in general

agreement and was developing a comprehensive corrective action plan.            A

detailed chronology of key events relating to the FY 1998 audit process is




                                        9
attached as Appendix 1.           My transmittal letter to the Secretary and the final

reports are attached as Appendix 2.



The reports on the 1998 financial statements will be the last ones to extend

beyond the statutory deadline. I am committed to meeting the March 1, 2000

deadline for the audit of the 1999 financial statements and all those that follow.



Detailed Results Of Ernst & Young’s Procedures

As a result of the engagement procedures followed, and as documented in their

Report of Independent Auditors, E&Y was unable to determine whether or not the

financial statements presented fairly, in all material respects, in conformity with

Federal accounting standards, the: (1) assets, liabilities, and net position; (2) net

costs; (3) changes in net position; (4) budgetary resources; and (5) reconciliation

of net costs to budgetary obligations. Accordingly, a disclaimer of opinion was

issued, which indicates that E&Y did not express an opinion on the financial

statements.2 A Report on Internal Control was also issued which detailed

reportable conditions relating to significant deficiencies in the design or operation

of internal control that could adversely affect the Department’s ability to record,

process, summarize and report financial data consistent with the assertions of


2
  According to the Statement of Auditing Standard No. 79, “the auditor can determine that he is
able to express an unqualified opinion only if his audit has been conducted in accordance with
generally accepted auditing standards and if he has therefore been able to apply all the
procedures he considers necessary in the circumstances. Restrictions on the scope of his audit,
whether imposed by the client or by circumstances, such as the timing of his work, the inability to
obtain sufficient competent evidential matter, or an inadequacy in the accounting records, may
require him to qualify his opinion or to disclaim an opinion. In such instances, the reasons for the
auditor's qualification of opinion or disclaimer of opinion should be described in his report.”



                                                 10
management in the financial statements.3 A Report on Compliance with Laws

and Regulations was issued which indicated that the Department had not

complied with the FFMIA of 1996.



Report of Independent Auditors

A disclaimer of an opinion was issued because E&Y was unable to determine

whether the fiscal year 1998 financial statements were presented in all material

respects in accordance with OMB Bulletin No. 97-01, “Form and Content of

Agency Financial Statements.” The disclaimer of opinion was issued due to the

following matters. The Department operated under a new financial management

software package in fiscal year 1998.                  The financial management software

package had several limitations in the financial reporting process. Weaknesses

included the inability to perform a year-end closing process or produce

automated consolidated financial statements, which were significant factors in

the Department’s inability to prepare accurate consolidated financial statements

in a timely manner. In addition to the weaknesses surrounding the financial

management software package, the Department did not adequately perform


3
 E&Y noted certain matters involving internal control and its operation that they consider to be
reportable conditions under standards established by the American Institute of Certified Public
Accountants and OMB Bulletin 98-08, Audit Requirements for Federal Financial Statements, as
amended. Reportable conditions involve matters coming to the auditor’s attention relating to
significant deficiencies in the design or operation of internal control that, in the auditor’s judgment,
could adversely affect the entity’s ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
irregularities in amounts that would be material in relation to the financial statements being
audited may occur and not be detected within a timely period by employees in the normal course
of performing their assigned functions.



                                                  11
reconciliations    on    account     balances      and   could    not    provide    sufficient

documentation supporting transactions. As a result of these limitations, E&Y was

unable to obtain sufficient evidential support for the amounts presented in the

consolidated balance sheet as of September 30, 1998, and the related

statements of net cost, changes in net position, budgetary resources, and

financing for the year then ended.



Report on Internal Control

In addition to the Report of Independent Auditors, a Report on Internal Control

was issued, which documented the following reportable conditions, of which the

first three were material weaknesses:



•   Financial Reporting Needs to Be Strengthened (Repeat Condition4 - Material

    Weakness)

•   Reconciliations Need to Be Improved (Repeat Condition - Material

    Weakness)

•   Controls Surrounding Information Systems Need Enhancement (Repeat

    Condition - Material Weakness)

•   Documentation Supporting Liabilities/Obligations was Insufficient

•   Controls Surrounding the Monitoring of the Department’s Programs Need to

    be Strengthened (Repeat Condition)

•   Insufficient Controls Surrounding Accounts Receivable/Cash Receipts


4
  Repeat condition means the issue was also included in the FY 1997 Report on Internal Control
issued by the ED OIG.


                                              12
•   The Department Needs to Establish Controls Over the Analysis and

    Reporting of Performance Measures (Repeat Condition)



All the weaknesses identified above can be attributed primarily to the

following:

1. The Department implemented a new financial management software

    package which made it more difficult for the Department to prepare its

    fiscal year 1998 financial statements.



2. There was significant turnover of personnel in the Office of the Chief

    Financial Officer (OCFO). As a result, there was limited guidance and

    leadership for individuals in the OCFO.



3. In fiscal year 1998, OMB Bulletin No. 97-01, Form and Content of

    Agency     Financial   Statements,       imposed    additional   reporting

    requirements on Federal agencies, such as increasing the number of

    required statements from two to five. Without a stable management

    structure and implementation of the new financial management

    software package, the Department encountered significant difficulties

    related to the preparation of its fiscal year 1998 financial statements.




                                          13
Report on Compliance with Laws and Regulations

The Report on Compliance with Laws and Regulations disclosed that the

Department’s financial management systems did not substantially comply with

the requirements outlined in the FFMIA of 19965. The Report on Internal Control

includes information related to the financial management systems and

accounting standards that were found not to comply with the requirements, and

presents     relevant     facts    pertaining      to   the   noncompliance        and     our

recommendations related to the specific issues. Specifically, it was noted that

the Department lacked adequate financial management systems, reports and

oversight to prepare timely and accurate financial statements.



Comparison Of FY 1998 With Previous Years

You asked how the findings reported for FY 1998 compared with previous

Department-wide audits. The Department received a disclaimer for three of the

four years. Overall, the findings identified in the Report on Internal Control for

1998 are substantially the same as those reported in prior years.



The Department was unable to receive an opinion on the FY1995 and FY1996

financial statements due primarily to a lack of reliable and complete data

supporting the estimated liability for loan guarantees related to the Federal

Family Education Loan Program (FFELP). This barrier to a clean opinion was

5
 Under FFMIA, the auditor is required to report whether the Department’s financial management
systems substantially comply with the Federal financial management systems requirements,
Federal accounting standards, and the U.S. Standard General Ledger at the transaction level. To




                                              14
overcome for the FY1997 financial statements through an extraordinary data

gathering effort by the Department, guaranty agencies and their independent

public accountants, the OIG and its contract auditors at that time. This was the

culmination of 18 months of effort that began initially for the FY 96 financial

statement audit. This provided reliable and complete data independent from the

Department’s systems that enabled an opinion to be expressed.



From 1995 through 1998, repeated internal control weaknesses were reported in

the areas of:

   •   reconciliation of Fund Balance with Treasury,

   •   overall monitoring of Department programs, and

   •   information systems controls.



For fiscal year 1997, financial reporting was identified as a new significant control

weakness.       It was reported again in 1998.            In contrast, in FY 1998 the

Department was able to correct the longstanding significant control weakness

related to its FFELP loan liability estimate.



Both the FY 1997 and FY 1998 Report on Compliance with Laws and

Regulations contained the finding that the Department did not meet the statutory

reporting date of March 1 and did not comply with the requirements of the

FFMIA.


meet this reporting requirement, E&Y performed tests of compliance using the implementation
guidance for FFMIA included in Appendix D of OMB Bulletin 98-08.


                                              15
Financial Management Practices

You also asked me to discuss developments in the Department’s financial

management practices in recent years. As I have discussed, findings on internal

control over the past four years are substantially the same. The one exception

would be the Department’s resolution of issues related to its FFELP loan liability

estimates.



Although still reported as a control weakness for FY1997, this barrier to an

opinion was overcome for FY1997 primarily by: (1) working around the

Department’s system for the loan liability estimate, and (2) extending the audit

effort. Subsequently, for FY 1998, the Department used data from its National

Student Loan Database to prepare the FY1998 FFELP loan liability estimate and

E&Y reported this issue as resolved.



The Department has made other efforts to improve its financial management

such as preparing interim statements, using contractors to help prepare

statements and instituting automated processes to prepare the consolidated trial

balance and financial statements.      However, I won’t know the impact these

efforts will have until E&Y completes its audit for FY 1999. I am committed to

meeting the March 1 deadline.




                                        16
Two additional, closely related control weaknesses emerged in FY 1997 and

were repeated in FY 1998. They concerned financial reporting and controls

surrounding information systems. Due to weaknesses in financial reporting, the

Department was unable to prepare timely and supported financial statements

from its general ledger system. The Department implemented a new general

ledger system for fiscal year 1998 that was unable to perform a year-end closing

process     or   produce   automated   consolidated   financial   statements.   The

Department is in the process of procuring a replacement system.



Systems control weaknesses related to EDCAPS included deficiencies in such

areas as development and testing of a disaster recovery plan and access

controls.   In addition, weaknesses were noted in physical and environmental

controls over computer rooms.



Recommendations For Improvement

The OIG and its contract auditors have made recommendations for improving

financial management in a variety of areas. Over the years, the financial audit

reports have resulted in multiple recommendations for improving financial

management. For example, the FY1998 Report on Internal Control contained 28

recommendations that addressed improving financial management.              These

recommendations focused on such key areas as:



   •   strengthening financial reporting;




                                            17
   •   improving reconciliations; and

   •   enhancing controls surrounding information systems.



A few specific recommendations included: ensuring that proper documentation is

maintained to support transactions and adjustments; reconciling Fund Balance

with Treasury accounts on a monthly basis; and defining procedures for granting

and controlling access to the computing resources.


In addition to the financial audit, there has been a substantial amount of work

performed by the OIG relating to the Department’s Grant Administration and

Payment System (GAPS).        The OIG has performed extensive work and has

issued a variety of products between March 1998 and May 1999 relating to

GAPS.     This work has resulted in numerous recommendations to improve

security of the systems and integrity of the data.



Monitoring Implementation Of Recommendations

Audit standards require follow-up on known material audit findings from previous

audits that could affect the financial statement audit in order to determine

whether the auditee has taken timely and appropriate corrective actions. The

status of uncorrected material findings and recommendations from prior audits of

the financial statements must be reported. As indicated in the FY 1998 Report

on Internal Control, a status of prior year’s findings was presented.




                                         18
In addition, the OIG has a tracking system which monitors implementation of

corrective actions by management. Management prepares a corrective action

plan in response to audit recommendations and reports semiannually on its

progress to the OIG. The OIG keeps recommendations open in the tracking

system until corrective actions are completed. These results are reported in the

OIG’s and the Department’s Semiannual Reports to Congress. With regard to

the Department-wide financial statement audits there were a total of 115

recommendations, of which 88 remain open and 27 are closed. Examples of key

issues for which recommendations remain open include: financial reporting;

reconciliations of Fund Balance with Treasury; and information systems controls.



Closing Comments

I am committed to issuing the audit report on the Department’s FY 1999 financial

statements in time to meet the March 1 deadline.        I am also committed to

providing timely, quality audit services to the Department to enable it to improve

financial management, and keeping the Department and Congress informed of

the results of our work. At this time, Mr. McNamara and I would be pleased to

answer any questions you may have.




                                       19
                                                                                     Appendix 1
                 Chronology of Key Events Relating to the FY1998 Audit Process


June 24, 1998           Ernst & Young (E&Y) was awarded the contract to perform the audit of
                        the Department of Education’s fiscal year 1998 financial statements.
                        Pursuant to this contract, the fiscal year 1998 audit was to be
                        completed by March 1, 1999.

July 14, 1998           Introductory meeting of E&Y with representatives from the Office of
                        Inspector General (OIG). At this time, Mr. John Higgins was the
                        Acting Inspector General. Note the IG position was filled by Ms.
                        Lorraine Lewis in June 1999.

July 22, 1998           Initial meeting with the OIG, E&Y, the Office of the Chief Financial
                        Officer (OCFO), and the Office of Postsecondary Education (OPE).

September 1, 1998       Received OCFO’s proposed schedule for modification to the audit
                        timeline.

September 3, 1998       Met with the OIG to discuss the impact of the OCFO’s proposal to
                        delay the audit. E&Y indicated that the impact could be less severe if
                        E&Y were permitted to remain onsite to perform planning and testing
                        of internal controls during the period of September 1998 to February
                        1999.

September 10, 1998      Met with the OIG and Department officials. OCFO management
                        determined that it would be less disruptive to the financial statement
                        preparation process if E&Y completely pulled out of the Department of
                        Education and returned in February 1999 to begin the audit. At this
                        meeting, the CFO indicated that the trial balance, financial statements,
                        and reconciliations would be provided to E&Y by February 8, 1999. All
                        parties agreed to the delay with the acknowledgment that the March 1
                        statutory deadline would not be met. In addition, it was agreed that
                        monthly status meetings would be held to enable the Department to
                        inform the OIG and E&Y of its progress in preparing its financial
                        statements, as well as completing the reconciliation of the Fund
                        Balance with Treasury.

February 11, 1999       E&Y held the opening conference with officials from the Department of
                        Education. GAO was in attendance as well. Neither the trial balance
                        nor the financial statements were available. OCFO did not anticipate
                        having the trial balance available to E&Y until early March.

March 15, 1999          The OIG requested a meeting with E&Y to discuss the problems
                        encountered to date with the audit and to evaluate the OIG’s options
                        with respect to the continuation of the audit.




                                              1
                                                                                            Appendix 1
                   Chronology of Key Events Relating to the FY1998 Audit Process


March 24, 1999            The OCFO provided the first draft of the trial balance, Balance Sheet,
                          Statement of Net Costs, and the Statement of Changes in Net
                          Position. These draft financial statements did not agree with the trial
                          balance. We were unable to utilize these statements for audit
                          purposes.

Early April 1999          OIG informed E&Y that the Chief Financial Officer had resigned from
                          the Department.

May 18, 1999              Received another draft of financial statements three months after
                          original commitment. There were still issues with these financial
                          statements that needed to be resolved with the OCFO.

May 26, 1999              Received final trial balance approximately four months after original
                          commitment to begin substantive testing.

Mid-June 1999             The OIG, E&Y and the Department agreed the focus should be changed to
                          supporting an opinion on the Balance Sheet and Statements of Net Cost and
                          Changes in Net Position, with all supporting documentation to be received by
                          July 16th. The consequences, at best, were that the Department would receive a
                          disclaimer on at least two statements.

July 6, 1999              Received final financial statements from the Department five months
                          past original February commitment.

July 12, 1999             The auditors changed the focus to the Balance Sheet only. The
                          consequences, at best, were that the Department would receive a disclaimer on
                          at least four statements.

July 20, 1999             The Deputy CFO provided E&Y a letter that indicated that the
                          Department had determined to stop the fiscal year 1998 financial
                          statement audit, and accept a disclaimer of opinion.

August 4, 1999            OIG, E&Y and the Department briefed GAO.                In addition, the
                          Department briefed OMB later in the day, which the OIG and E&Y also
                          attended. The purpose of the briefings was to discuss the disclaimer
                          of opinion and the reasons behind it, as well as the anticipated findings
                          to be included in the Report on Internal Control.

September 15, 1999        Completed audit fieldwork.

November 9, 1999          Final draft of the Report of Independent Auditor, Report on Internal
                          Control, and Report on Compliance with Laws and Regulations were
                          provided to the Department.

November 12, 1999         Received final comments from the Department on all 3 reports.
                          [Reports wait to be finalized until management representation letter is
                          received.]



                                                  2
                                                                                Appendix 1
               Chronology of Key Events Relating to the FY1998 Audit Process


November 16, 1999     E&Y received management representation letter from the Department
                      of Education.

November 18, 1999     Provided the final reports to the OIG for distribution.




                                             3
                           Report of Independent Auditors


To the Inspector General
U.S. Department of Education

We were engaged to audit the accompanying consolidated balance sheet of the U.S.
Department of Education (the Department) as of September 30, 1998, and the related
statements of net cost, changes in net position, budgetary resources and financing for the
year then ended. These financial statements are the responsibility of the Department of
Education’s management.

As required by Office of Management and Budget (OMB) Bulletin No. 97-01, Form and
Content of Agency Financial Statements, Note 1 to the Principal Statements describes the
accounting policies used by the Department to prepare these financial statements, which is
a comprehensive basis of accounting other than generally accepted accounting principles.

The Department operated under a new accounting system in fiscal year 1998. The
accounting system has several limitations in the financial reporting process. The
weaknesses with the system, such as the system’s inability to perform a year-end closing
process or produce automated consolidated financial statements, were significant factors
in the Department’s inability to prepare accurate consolidated financial statements in a
timely manner. In addition to the weaknesses surrounding the accounting system, the
Department did not adequately perform reconciliations and could not provide sufficient
documentation supporting transactions. As a result of these limitations, we were unable to
obtain sufficient evidential support for the amounts presented in the consolidated balance
sheet as of September 30, 1998, and the related statements of net cost, changes in net
position, budgetary resources, and financing for the year then ended.

Because of the matters discussed in the preceding paragraph, the scope of our work was
not sufficient to enable us to express, and we do not express, an opinion on the
consolidated balance sheet as of September 30, 1998, and the related statements of net
cost, changes in net position, budgetary resources, and financing for the year then ended.

The information presented in the Overview and the Supplemental Statements is not a
required part of the principal financial statements, but is supplementary information
required by OMB Bulletin 97-01, Form and Content of Agency Financial Statements.
Such information has not been subjected to audit procedures, and accordingly, we express
no opinion on it.
Report of Independent Auditors
Page 2

In accordance with Government Auditing Standards, we have issued our reports dated
September 15, 1999, on our consideration of the Department of Education’s internal
controls and on its compliance with applicable laws and regulations.




September 15, 1999
Washington, D.C.
                               Report on Internal Control


To the Inspector General
U.S. Department of Education

We were engaged to audit the accompanying consolidated balance sheet of the U.S.
Department of Education (the Department) as of September 30, 1998, and the related
statements of net cost, changes in net position, budgetary resources and financing for the
year then ended, and have issued our report thereon dated September 15, 1999. The
report states that because of matters discussed therein, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the consolidated
balance sheet as of September 30, 1998, and the related statements of net cost, changes in
net position, budgetary resources, and financing for the year then ended.

Management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The
objectives of internal control are to provide management with reasonable, but not
absolute, assurance that: assets are safeguarded against loss from unauthorized use or
disposition; transactions are executed in accordance with management’s authorization and
recorded properly to permit the preparation of financial statements in accordance with the
hierarchy of accounting principles and standards approved by the principals of the Federal
Accounting Standards Advisory Board; and data that support reported performance
measures are properly recorded and accounted for to permit preparation of reliable and
complete performance information. Because of inherent limitations in any internal control,
errors and irregularities may nevertheless occur and not be detected. Also, projection of
any evaluation of internal control to future periods is subject to the risk that procedures
may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

In planning and performing the engagement, we considered the Department’s internal
control over financial reporting by obtaining an understanding of the Department’s internal
controls, determining whether these internal controls had been in operation, assessing
control risk, and performed tests of controls in order to determine our auditing procedures
for the purpose of expressing an opinion on the financial statements and not to provide
assurance on the internal control over financial reporting. Consequently, we do not
provide an opinion on internal controls.

In addition, with respect to internal controls related to performance measures reported in
the overview of the Department’s consolidated financial statements, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions, as required by the Office of Management and Budget (OMB)
Report on Internal Control
Page 2

Bulletin No. 98-08, Audit Requirements for Federal Financial Statements. Our
procedures were not designed to provide assurance on internal control over reported
performance measures, and accordingly, we do not provide an opinion on such controls.

We noted certain matters involving internal control and its operation that we consider to
be reportable conditions under standards established by the American Institute of Certified
Public Accountants and OMB Bulletin 98-08, Audit Requirements for Federal Financial
Statements, as amended. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of internal control that, in our
judgment, could adversely affect the entity’s ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial
statements.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that errors or irregularities in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Our consideration of internal control would not necessarily disclose all matters in internal
control which might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses as
defined above. We have summarized the reportable conditions below, the first three of
which are considered material weaknesses as defined above.

• Financial Reporting Needs to Be Strengthened (Repeat Condition)
• Reconciliations Need to Be Improved (Repeat Condition)
• Controls Surrounding Information Systems Need Enhancement (Repeat Condition)
• Documentation Supporting Liabilities/Obligations was Insufficient (Repeat Condition)
• Controls Surrounding the Monitoring of the Department’s Programs Need to be
  Strengthened (Repeat Condition)
• Insufficient Controls Surrounding Accounts Receivable/Cash Receipts
• The Department Needs to Establish Controls Over the Analysis and Reporting of
  Performance Measures (Repeat Condition)

The weaknesses identified, discussed in detail below, can be attributed to several factors.
First, the Department implemented a new accounting system, Education’s Central
Automated Processing System (EDCAPS), which does not easily facilitate the Department
in its preparation of financial statements. Second, there has been a significant amount of
turnover in the Office of the Chief Financial Officer (OCFO) causing limited guidance and
leadership. Third, the Department did not have sufficient resources available for the
preparation of the financial statements. Finally, the Department was required to report for
fiscal year 1998 under OMB Bulletin No. 97-01, Form and Content of Agency Financial
Report on Internal Control
Page 3

Statements. OMB Bulletin No. 97-01 placed additional reporting requirements on Federal
agencies and without a stable management structure, as well as adequate systems, the
Department encountered significant difficulties related to the preparation of its fiscal year
1998 financial statements.

In addition to resolving the findings noted, the Department will have added challenges as it
prepares the fiscal year 1999 financial statements. The challenges result from the
implementation of requirements within the Government Performance and Results Act of
1993, and the recent authorization under the Higher Education Act Amendments of 1998,
which afforded the Department the opportunity to establish a Performance-Based
Organization (PBO), the Office of Student Financial Assistance (OSFA). Both these
pieces of legislation add additional reporting requirements for fiscal year 1999. For
example, the OCFO will be responsible for preparing the fiscal year 1999 financial
statements for both the Department and OSFA. To overcome the challenges, the
Department must ensure that proper resources are allocated to the preparation of the
Department’s and the OSFA’s fiscal year 1999 financial statements.

MATERIAL WEAKNESSES

1. Financial Reporting Needs to Be Strengthened (Repeat Condition)

The Chief Financial Officers (CFO) Act and, in particular, OMB Bulletin No. 97-01, Form
and Content of Agency Financial Statements, require that financial statements be the
culmination of a systematic accounting process. The statements are to result from an
accounting system that is an integral part of a total financial management system
containing sufficient structure, effective internal controls, and reliable data. Our fiscal year
1998 procedures found that the Department lacked adequate financial management
systems, reports and oversight to prepare timely and accurate financial statements.

The following provides a few examples of the issues encountered during our review of
the Department’s financial statements and the related process surrounding the preparation
of its financial statements:

A. General Ledger

We noted significant weaknesses in the Department’s financial reporting processes, as
discussed throughout this report. One of the significant weaknesses in the reporting
process relates to the EDCAPS general ledger software package, Financial Management
System Software (FMSS). Refer to the finding, Controls Surrounding Information
Systems Need Enhancement, for additional issues specific to the system. The weaknesses
in the general ledger system were driving factors in the Department’s inability to prepare
accurate financial statements in a timely manner. Currently, FMSS does not allow the user
to perform a year-end closing process. For example, the FMSS general ledger trial
balances contain two fiscal years of revenue and expense data (fiscal years 1997 and
Report on Internal Control
Page 4

1998), and the assets and equity accounts do not reflect the proper balances. In addition,
FMSS did not allow the Department to produce a general ledger trial balance at the
reporting group level or at a consolidated level for fiscal year 1998. Instead, FMSS can
only generate trial balances at the appropriation level.

As a result of the system deficiencies, the Department devoted a significant amount of
resources, both personnel and time, to preparing an ad-hoc consolidated trial balance. The
ad-hoc trial balance (referred to as the “as if” trial balance) simulates a year-end close for
fiscal year 1997 in order to provide the Department with the ability to generate a trial
balance with only fiscal year 1998 revenue and expense data.

The Department is working with a contractor to implement a year-end close process.
According to management, an automated reporting process has been developed and will
be incorporated prior to the close of fiscal year 1999. This reporting process should
enable the Department to produce a pre-close and post-close trial balance at the
appropriation level. However, FMSS will still not be able to produce a trial balance at the
consolidated level.

B. Financial Statement Preparation

As a result of the general ledger deficiencies discussed above, it was necessary for the
Department to write a program to extract the general ledger accounts from its accounting
system, in order to prepare the fiscal year 1998 financial statements. The process
represents a “query” of the general ledger database, which is a process of searching for
data, as programmed by Department personnel, to retrieve and summarize the data in a
certain format. These queries were performed at the appropriation level; as a result, the
Department started the reporting process with over 200 sets of financial statements. The
appropriation level financial statements were then analyzed by OCFO staff, and
adjustments were posted, as deemed necessary. The 200 sets of adjusted financial
statements were then “rolled-up” to produce financial statements at the reporting group
level, and then finally at the consolidated level. As a result of this process, the Department
posted over 700 adjustments and/or reclassifications to its trial balances in order to
generate a final working trial balance to prepare its fiscal year 1998 consolidated financial
statements.

Several significant weaknesses in the financial statement preparation process were noted.
The following represent a few examples of the weaknesses noted:

• The financial statements were not reconciled to the trial balances to ensure that all
  amounts were properly included. As a result, significant variances between the trial
  balances and the financial statements existed. A proper reconciliation would have
  facilitated the Department in preparing one set of financial statements rather than the
  several sets that were provided.
Report on Internal Control
Page 5

• The financial statements were prepared at the appropriation level, which was very time
  consuming and resource intensive. Due to the large volume of data and paperwork
  involved in the preparation of the financial statements at the appropriation level, many
  errors and adjustments in the statements went undetected by the Department. For
  example, the parameters used to simulate closing and the creating of the “as if” trial
  balance were not complete or inclusive. When the trial balance was compared to the
  OMB Bulletin No. 97-01 crosswalk, there were accounts that were excluded from the
  Department’s parameters as well as accounts which were added from the
  Department’s chart of accounts. In addition, accounts which were added and
  excluded were not adequately documented.

• Many adjustments posted to the financial statements were not adequately tracked and
  documented. As a result, not all adjustments were properly posted to the general
  ledger. For example, a $550 million adjustment was posted incorrectly, thereby
  creating a net difference of approximately $1.1 billion to expenditures. Through
  discussions with OCFO personnel, we were informed that the data obtained from
  FMSS was incorrect and, accordingly, adjustments to the trial balances were needed to
  make the financial statements reflect balances which the Department believed the
  accounts should contain. The Department was able to provide the journal vouchers
  (JVs) indicating the accounts affected by the adjustments; however, the JVs did not
  always contain the reason that the adjustment was needed. As a result, we were
  unable to determine the validity of several of the adjustments. For example, we
  identified one adjustment of approximately $400 million that was invalid and needed to
  be reversed.

• Given the system’s limitations and the manual process surrounding the preparation of
  financial statements, the Department does not have sufficient resources to prepare
  financial statements timely. In addition, the Department did not prepare sufficient
  guidance memorandums, as outlined in OMB Bulletin No. 97-01, for the financial and
  program management personnel responsible for the preparation of the annual financial
  statements. As a result, the Department was unable to meet the statutory reporting
  deadline of March 1, 1999, for its fiscal year 1998 audited financial statements.

C. Net Position

The Department was unable to adequately support the net position balance as of
September 30, 1998. Specifically, the Department was unable to sufficiently support the
breakout between unexpended appropriations and cumulative results of operations. The
majority of the issues surrounding net position resulted from the Department’s conversion
from the Primary Accounting System (PAS - the general accounting system used in fiscal
year 1997) to FMSS (the general accounting system implemented and used during fiscal
year 1998). As a result of the conversion, this was the first year that the 5700 account
(Appropriated Capital Used) had been utilized by the Department. However, according to
Report on Internal Control
Page 6

OCFO personnel, certain transactions were recorded in the 5700 account that should not
have been. In addition, there were other transactions that should have been recorded in
the 5700 account, but were not reflected in the account. Therefore, the Department had
to make several adjustments to this account throughout the entire year.

To support net position, we were provided an equity analysis performed by the OCFO.
However, upon review of the equity analysis and the related supporting documentation,
we noted that many of the adjusting entries were not properly reflected in the net position
balance. In addition, we noted that many of the adjusting entries did not have adequate
support documenting the reason for the adjustment. The supporting documentation, if
provided, was mainly the coding sheets (e.g., journal vouchers) which indicated which
general ledger account should be adjusted.

Recommendations:

We recommend that the Department of Education perform the following:

1. Define and document the information system requirements to efficiently manage
   operations and then develop or modify reports to meet reporting and reconciliation
   requirements.

2. Prepare a strategic plan for financial reporting which identifies: (1) milestones for
   specific procedures that need to be performed in order to prepare interim and annual
   financial statements; (2) individuals responsible for each of the procedures identified as
   part of the financial reporting process; and (3) deadlines for each critical phase of the
   financial statement preparation.

3. Review and enhance its current policies and procedures to ensure that sufficient
   guidance is available for the Department’s personnel on the year-end closing process,
   and the preparation of the financial statements. Such guidance should be distributed to
   all Department personnel involved with the financial statement process. The
   Department should also ensure that the policies and procedures are updated to
   incorporate the financial reporting needs of the OSFA.

4. Clearly define roles and responsibilities for the Department’s personnel involved in the
   preparation of the Department’s consolidated financial statements, and OSFA’s
   financial statements. In addition, we recommend that the Department provide
   additional training to its personnel related to the policies and procedures surrounding
   the preparation of the Department’s and OSFA’s financial statements. Such training
   should incorporate the additional reporting needs of OSFA’s financial data. For
   example, the Department should provide guidance on how Departmental overhead
   costs are intended to be allocated to OSFA.
Report on Internal Control
Page 7

5. Ensure that appropriate and adequate quality assurance procedures are performed
   during the financial statement preparation process.

6. Ensure that adequate resources are allocated to the preparation of the financial
   statements.

7. Ensure that proper supporting documentation is maintained to substantiate
   transactions and adjustments.

2. Reconciliations Need to be Improved (Repeat Condition)

A major objective of internal controls is to ensure the integrity of the underlying
accounting data supporting the financial statements. An important control in this regard is
the periodic reconciliation of the Department’s accounting records. An adequate
reconciliation provides the assurance that processed transactions are properly and timely
recorded in the Department’s accounting records and financial statements, which then
facilitates management’s ability to analyze its financial condition and results of operations
on a routine basis.

In general, we noted that the Department did not perform proper or timely reconciliations
of its financial accounting records. On numerous occasions, we noted that the
Department adjusted its general ledger to reflect the balance per the subsidiary records,
without sufficiently researching the cause for the differences. The following provides a
few examples in which reconciliations were not performed on an adequate, regular or
timely basis:

A. Fund Balance with Treasury

As indicated in the prior year’s Report on Internal Controls, the Department has had
difficulty identifying and resolving differences between its accounting records and cash
transactions reported by Treasury for several years. There are many underlying reasons
for the Department’s difficulties. One reason is that formal reconciliation procedures were
not performed on a current or regular basis. Another reason is that reconciliations were
inconsistently performed and identified differences were not always adequately explained,
resolved and posted to the Department’s general ledger. The following represent
examples of issues identified during our testing of the Department’s reconciliation of Fund
Balance with Treasury:

• While testing the Statement of Difference (TFS 6652), we inquired about the
  Statement of Transactions (SF 224) preparation process to verify how differences in
  the TFS 6652 were corrected in subsequent periods. We found that the transactions
  the Department reported to Treasury on the SF 224 differed from the transactions
  posted to the general ledger in every period throughout fiscal year 1998, creating large
  reconciling differences, which were adjusted to equal the balance shown by Treasury
Report on Internal Control
Page 8

   in the cash reconciliation process. Also, we noted that some of the reconciling
   differences were not corrected until eight months after being reported in the TFS
   6652.

• Differences noted between Treasury and the Department’s records were not
  adequately researched. In order to bring its accounts into agreement with Treasury,
  the Department would record the identified differences to its suspense, grantback, or
  budget clearing accounts without fully researching and resolving the difference. For
  example, when testing the Budget Clearing Account (F3875), we noted that
  differences were not corrected or communicated to Treasury on a timely basis which
  made the reconciliation at year-end difficult due to the large volume of unreconciled
  differences.

• As of September 30, 1998, the FMSS balance of the Grantback Account (X6191) was
  $398,928,914. Of this balance, $386,333,328 was composed of several adjustments
  that have accumulated since fiscal year 1993 for reconciling differences of various
  appropriations that could not be identified with any specific program. We received an
  Analysis of Canceled Funds Held in the Grantback Account. Based on this analysis,
  the Department developed two approaches to use in calculating the amount of the
  Grantback account that needed to be returned to Treasury. The first approach, based
  on a percentage of active appropriations, indicated that the Department should return
  $221,852,046 to Treasury. The second approach, based on total active funds in the
  Grantback account, indicated that the Department should return $15,421,299.
  Although the fiscal year 1998 analysis was performed, the Department did not return
  additional funds to Treasury for the following reasons: (1) funds from the Grantback
  account might be used to compensate for reconciling differences between the Grant
  Administration Payment System (GAPS) and FMSS, and (2) funds from the
  Grantback account might be needed to balance differences among grant appropriations
  between Treasury and the general ledger.

   Based on our testing and discussions with OCFO personnel, the Department cannot
   readily determine to which appropriations the excess funds in the Grantback account
   belong due to the following reasons: (1) assurance that funds from canceled
   appropriations were not transferred to active appropriations could not be provided;
   and (2) supporting documentation for the budgetary balances could not be provided.

These are some of the reasons that large differences accumulated during the year between
Treasury and the Department’s general ledger Fund Balance with Treasury account,
making the reconciliation process more difficult. In addition, the majority of these
differences were posted to Fund Balance with Treasury to increase or decrease the
balances of budget clearing and suspense accounts.

The Department’s delay in performing its reconciliation of the Fund Balance with Treasury
account exposes the Department to greater risk that material errors or irregularities could
Report on Internal Control
Page 9

occur and not be detected on a timely basis. The reliability of accounting data and
management control over cash transactions as reported to Treasury diminishes when
reconciliations are not performed in a consistent or timely manner.

The Department attributes its reconciliation difficulties to inadequate integration between
its general ledger system and its payments and funds control systems, which are the
original points of entry for many cash transactions. These integration issues result in
certain cash transactions not being properly and timely transferred from the originating
systems to the Department’s general ledger system, thus causing the Department’s Fund
Balance with Treasury as recorded per the general ledger to differ from Treasury.

B. Grant Expenditures

The Grant Administration and Payment System (GAPS) is used by grantees to drawdown
funds, via the internet, from the Department. The transactions are electronically
accumulated and transmitted to FMSS, the Department’s general ledger. Accordingly, the
expenditure and drawdown data reported in GAPS should be equal to the expenditure and
drawdown data in FMSS. However, during our testing of grants, we noted that the
Department did not reconcile its grants subsidiary ledger, GAPS, with the FMSS general
ledger during fiscal year 1998. As a result and due to impending time constraints, the
Department was unable to explain a difference of approximately $134 million between
FMSS and GAPS.

In addition, the Department did not have formal policies and procedures in place to
perform reconciliations between GAPS and FMSS. The Department did not perform
grant expenditure reconciliations until after the end of the fiscal year. Given the high
volume of transactions that flow through GAPS (over $20 billion per year) the
Department’s delay in performing the reconciliation of grant expenditures increases the
risk that material errors or irregularities could occur and not be detected on a timely basis.

Although the adjustment capabilities available to grantees are beneficial in curbing excess
cash held by grantees, adjustments are posted to FMSS when made and cannot be applied
to any other period than the present. Therefore, if a grantee makes an adjustment after
year-end for prior year transactions, there is an increased risk that the adjustment would
not be posted in the proper period.
C. Other Areas

The Department did not perform year-end reconciliations to properly identify the
differences (if any) between the general ledger balance and the detail in the Debt
Collection Management System (DCMS). Instead, the receivable balance in the general
ledger was adjusted to the subsidiary report balance generated from DCMS without a
reconciliation of the difference. In addition, there are no reconciliations between the loans
the GAs assigned to the Department and what gets accepted in the system. We noted
Report on Internal Control
Page 10

discrepancies between the GA confirmations and DCS records for loans assigned during
the year.

Weaknesses in the Department’s internal controls over the reconciliation process
prevented timely detection and correction of errors in its underlying accounting records.
Further, the delays experienced in completing its reconciliations was a contributing factor
in preventing the Department from submitting audited fiscal year 1998 financial statements
by the statutory deadline of March 1, 1999. In addition, the fiscal year 1998
implementation of EDCAPS also contributed to the Department’s inability to perform
routine reconciliations. The general ledger portion (FMSS) of EDCAPS was not
adequately integrated with other financial reporting systems during the fiscal year, thereby
reducing the Department’s ability to systematically perform reconciliations.

Recommendations:

We recommend that the Department of Education perform the following:

1. Review and update its current policies and procedures surrounding reconciliations of
   all significant accounts. These policies and procedures should be specific in order to
   provide sufficient guidance to the Department’s personnel. The Department should
   review its policies and procedures on a regular basis to ensure that they remain current
   and are achieving the Department’s intended management objectives.

2. Reconcile the Fund Balance with Treasury accounts on a monthly basis. The
   reconciliations should include documentation of the research performed and the
   resolution of the issue. All differences identified should be researched and resolved in
   a more timely manner. Management should consider implementing specific policies
   and procedures addressing items that have been recorded in the suspense, grantback
   and budget clearing accounts. The policies should ensure to document the intended
   purpose of these accounts and address the type of activity that should flow through
   them. The procedures should document the review and approval process for
   reconciling transactions.      The review process should also include providing
   management with summary reports indicating the reasons why the items have not been
   cleared from these accounts and that transactions in these accounts are appropriately
   classified. For example, the grantback account should be cleared to include only those
   transactions that are specific to grantback activity. Limited amounts should be
   reflected in these accounts as of the fiscal year end.

3. Perform regular reconciliations of all significant accounts. All correcting entries
   should be posted in a timely manner. In addition, documentation should be maintained
   to support the correction. Such documentation should include, at a minimum, an
   indication of who prepared the reconciliation, as well as the date of preparation,
   evidence of supervisory review, the accounting entries associated with any
   adjustments, and the reason for the adjustments.
Report on Internal Control
Page 11


3. Controls Surrounding Information Systems Need Enhancement (Repeat
   Condition)

In connection with the annual audit of the Department’s fiscal year 1998 financial
statements we conducted a general controls review of the information technology
processes related to the significant accounting and financial reporting systems. OMB
Circular No. A-130 requires: (1) standard documentation and procedures for certification
and accreditation of systems; (2) records management programs that provide adequate and
proper documentation of agency activities; (3) agencies to develop internal information
policies and procedures and oversee, evaluate, and otherwise periodically review agency
information resources management activities; and (4) agency plans to assure that there is
an ability to recover and provide service sufficient to meet the minimal needs of users of
the system noting that manual procedures are generally not a viable back-up option.

As a result of procedures performed, the following deficiencies were noted:

• The development, documentation, and testing of a comprehensive disaster recovery
  plan for all of the systems and business processes has not been finalized. Without a
  documented and tested disaster recovery plan, the timely restoration of EDCAPS in
  the event of a disaster may not be possible, thereby preventing the Department from
  resuming business in an adequate manner.

• User account and password standards stated in the EDCAPS Security Plan are not
  fully implemented. Each individual system and application within EDCAPS has
  various user ID and password settings that differs from the policies outlined in the
  Security Plan.

• The approach and methodology for design, selection, coordination and maintenance of
  information technology architecture has not been formally documented.

• The Security Plan does not contain current procedures for requesting, authorizing,
  revalidating, and granting access to computing resources. In addition, the Department
  does not comprehensively log, monitor, review access, or issue alerts to sensitive
  computing resources. There is no process for security violation monitoring,
  investigation, and resolution.

• Physical and environmental controls over computer rooms are not sufficient. For
  example, critical computing equipment is not adequately protected from water
  damage, and there are large amounts of combustible materials in the computer rooms.
  We also noted that documentation of authorizations for card key access was
  incomplete. Furthermore, the revalidation procedures for card key access to the
  computing resources are not effective. Lastly, there are no documented policies and
Report on Internal Control
Page 12

   procedures with respect to physical and environmental controls over all computing
   resources.

Recommendations:

The Department of Education should perform the following:

1. Continue to develop a disaster recovery plan. Once developed, the plan should be
   tested and updated regularly to assess its effectiveness.

2. Enhance user account and password controls over EDNET and EDCAPS applications
   and enforce security policies that are stated in the Security Plan.

3. Develop and implement a formal approach and methodology for designing and
   maintaining its IT architecture. The plan should also clearly define related roles and
   responsibilities.

4. Update the security policies and procedures to reflect the changing system security
   needs. In addition, the Department should implement periodic reviews of the plan to
   ensure that changes to systems and processes are adequately addressed. Procedures
   should be developed and implemented to ensure that all access authorizations are
   documented and that access rights are revalidated on a periodic basis.

5. Define, document, and implement comprehensive policies and procedures for granting
   and controlling access to the computing resources. Controls should be defined to
   ensure that all authorizations are properly documented and periodically reviewed for
   appropriateness. Policies and procedures should be developed to protect IT resources
   from physical and environmental threats.
Report on Internal Control
Page 13

REPORTABLE CONDITIONS

4. Documentation Supporting Liabilities/Obligations was Insufficient

The Department experienced significant delays and required significant staff resources to
prepare data supporting its financial statements, as indicated above. In addition to those
difficulties, the Department was unable to readily provide listings of outstanding accounts
payable and accrued liabilities at September 30, 1998. According to OMB Circular No.
A-123, documentation for transactions, management controls, and other significant events
must be clear and readily available for examination. The following provides examples of
the issues encountered during our testing of the fiscal year 1998 financial statements:

A. Estimated Grant Liability

The Department provides significant funding to grant recipients each fiscal year (over $20
billion). During fiscal year 1997 and prior fiscal years, the Department collected data on
actual expenditures incurred from grant recipients through the use of a Standard Form
(SF) 272. Using the data on the SF 272, the Department was able to estimate its liability
at the end of the fiscal year for expenses incurred by the recipients but not yet reimbursed
by the Department, thereby creating an accrued liability.

Early in fiscal year 1998, the Department discontinued the use of the SF 272, thereby
eliminating the need for the grantees to submit selected information. In addition, in May
1998, the Department converted its grant system from the Payment Management System
(PMS) to the Grant Administration and Payment System (GAPS). Under the GAPS
system, all cash drawdowns made by recipients are recorded as expenses in the period the
cash is disbursed – in essence, grant expenditures are recorded on the cash basis rather
than the accrual basis. The recording of grant expenditures on the cash basis, coupled
with the fact that the Department no longer requires recipients to report actual
expenditures periodically, impeded the Department’s ability to adequately estimate the
grant liability as of September 30, 1998.

Failure to reasonably estimate the grant liability accrual may result in a material
misstatement on the Department’s financial statements. However, we are unable to gain
any assurance pertaining to the amount of misstatement.

The Department is currently exploring options for calculating the grant liability for fiscal
year 1999, including requesting that the recipients submit, via confirmation by the
Department, the information for the September 30 year-end.
Report on Internal Control
Page 14

B. Accounts Payable

The Department does not generate a subsidiary ledger for its accounts payable.
Therefore, in order to test the accounts payable balance, it was necessary to query the
system (via COGNOS – a query software package) to obtain a listing of accounts payable
as of September 30, 1998. As a result of the query, we noted that one of the reporting
groups contained a positive accounts payable balance. The Department was unable to
provide support pertaining to the debit balance. We also selected a sample from the query
and requested supporting documentation. Management was unable to provide us with the
supporting documentation for the sample items selected.

In addition to the lack of supporting documentation, we noted that the classification of
accounts payable on the Department’s financial statements did not agree with the system’s
classification. For example, the financial statements reflected certain amounts as either
Intragovernmental (Gv) or Governmental (Co) but the transactions were coded the
opposite way per the COGNOS query. We were informed that the sector flag (field for
determining which sector) is not reliable within the system. We were also informed that it
was likely that the field was populated incorrectly. A similar problem exists with the
“covered by budgetary resources” and “not covered by budgetary resources” flags.

As a result of the above occurrences, we were unable to gain assurance as to whether or
not the accounts payable balances were fairly stated or properly classified.

C. Obligations

As part of our review of the financial statements, we requested a report listing the
Department’s undelivered orders as of September 30, 1998. Although the Department
was able to generate the report, the balance per the report did not agree with the notes to
the financial statements. The difference between the undelivered orders report and the
financial statements was approximately $6 billion. The Department was unable to explain
this difference.

In addition, the Department did not sufficiently de-obligate funds in a timely manner.
During our review of the grant programs, we found that the award documents that
required manual closings were not closed during fiscal year 1998. Only automatic closings
were properly de-obligated. According to OCFO management, payees were not able to
access funds after the liquidation period. However, obligations are overstated as a result
of not performing the closings for manual de-obligations. We were unable to determine
the amount of the overstatement since the Department’s data processing system cannot
retrieve information by historical date.
Report on Internal Control
Page 15

D. Borrowings

During our testing of Borrowings from Treasury, we noted that many of the principal
repayments to Treasury were made after September 30, 1998. For financial reporting
purposes, the Department reflected the repayment of borrowings as if it had occurred by
September 30, 1998. As a result of the principal repayments to Treasury, both Fund
Balance with Treasury and Borrowings from Treasury are understated by approximately
$1.3 billion as of September 30, 1998.

Recommendations:

We recommend that the Department of Education perform the following:

1. Develop a methodology for estimating the year-end grant liability accrual and ensure
   that this methodology is completed promptly in order to facilitate the fiscal year 1999
   financial statement audit.

2. Review its system requirements so that the Department can produce subsidiary ledgers
   in a timely manner, as well as substantiate all accounts payable transactions and
   obligations.    The subsidiary ledger should also identify payables as either
   governmental, intra-governmental, covered by budgetary resources or not covered by
   budgetary resources.

3. Enhance current policies and procedures to ensure that all obligations are reviewed on
   a frequent basis, as well as at year-end, to ensure that all obligations are valid.
   Training should be provided to individuals responsible for performing the
   verification/validation of the obligations, and it should include de-obligation
   procedures.

4. Determine the funding needed for repayment of its borrowings and ensure that the
   payment occurs on or before September 30th. Policies and procedures should be
   developed to ensure proper reporting of transactions associated with borrowings.

5. Controls Surrounding the Monitoring of the Department’s Programs Need to be
   Strengthened (Repeat Condition)

In order to achieve the objectives of the Higher Education Act of 1965, as amended, the
Department utilizes the services of multiple outside entities (e.g., schools, guaranty
agencies and lenders). Given the significant level of funding associated with these
programs which flows through the outside entities, the Department must have adequate
oversight of its programs. These programs include: the Federal Family Education Loan
Program (FFELP), William D. Ford Direct Loan Program (Direct Loans), and the Grant
Programs.
The Department established the following significant divisions to perform the necessary
Report on Internal Control
Page 16

oversight of the outside entities: (1) Guaranty and Lender Oversight Service (GLOS), (2)
Institutional Participation and Oversight Service (IPOS), and (3) Non-Title IV Grant
Programs. During our audit testing of the Department’s programs and its related
oversight, we noted several areas for which controls over monitoring could be enhanced.
The following provides some examples of issues we noted during our testing:

• As indicated in the previous year, some of the lender reporting packages did not
   strictly adhere to the established lender audit guide (Part IV). The lender reporting
   package must consist of specified reports and documents prepared by either the lender
   or an Independent Public Accountant (IPA). In several of the reports reviewed during
   our fiscal year 1998 testing, we found that some documents were not submitted to the
   Department as required by the guidance. In addition, of the twenty-five lender IPA
   Audit Reports sampled, we noted that seven reports were not submitted to GLOS
   within six months of the lender’s fiscal year-end as required. We were also unable to
   determine if management's assertions were included as part of the management
   representation letter for one of the twenty-five reports sampled.

• We selected fifteen of the twenty-five Guaranty Agency (GA) IPA reports submitted
   to the Department during fiscal year 1998 to review. Of the fifteen sampled GA IPA
   reports: (1) four GAs did not submit their IPA reports to the Single Audit
   Clearinghouse within thirteen months of the fiscal year-end; (2) five reports were not
   received by the Department in a timely manner from the Clearinghouse (three weeks);
   (3) one report was processed without financial statements and respective auditor’s
   opinion; (4) four reports were not received at GLOS (from IPOS) in a timely manner
   (within three weeks of receipt at IPOS); and (5) five reports were not/will not be
   closed by GLOS within six months from the date the report was received by GLOS.

• For our testing of the Single Audits, we selected a sample of 26 audits to review. Of
   the 26 Single Audit reports: (1) nine were not submitted to the Census Clearinghouse
   within thirteen months of the fiscal year-end; (2) nine were not received by the
   Department in a timely manner from the Clearinghouse (two months); and (3) one
   report was not issued by ED within six months of receipt. In addition, of the seven
   reports that had findings which required resolution, four were not closed within the six
   month time frame.

• We selected a sample of 12 program reviews to test at the New York regional office
   (Region 2). Of the 12 reviews selected, eight were close-out desk reviews (the
   institutions had closed). Of the eight, the Department was unable to collect funds due
   on five. At this time there are no requirements for an institution to set aside funds for
   a close-out audit or for close-out penalties. For one of the twelve reviews, the
   Program Review Report was not issued within 60 days of the review date. The
   Department was also late in issuing the Final Program Review Determination Letter on
   three reviews. Management indicated that the issuance of the Letter is contingent on
   the institutions providing the Department with specific information. Therefore, if the
Report on Internal Control
Page 17

   institutions do not provide the information timely, then the Department will be delayed
   in its issuance of the Letter.

• The Department does not maintain a subsidiary ledger system specific to tracking the
  receivables and reserves held by the individual GAs. During our testing of the reserve
  balances, we noted several inconsistencies between the amounts reported by the GAs
  on the Form 1130 versus what was submitted via confirmation request. Neither the
  GAs nor the Department were able to provide explanations for several of the
  differences noted. In addition, we noted that fourteen out of the thirty-six GA had
  reporting errors on their Form 1130, totaling approximately $36 million.

   The Department only performs a year-end analysis of the defaulted guaranteed loan
   receivable data maintained at the GAs. We recommend that the Department perform
   more frequent analysis so that any problems can be resolved in a timely manner. In
   addition, the Department does not compare outstanding principal balance data
   maintained in the National Student Loan Data System (NSLDS) to the Form 1130 on
   a routine basis. The NSLDS is primarily used to track information specific to loans
   such as principal and interest. Although there is no subsidiary ledger system that
   tracks individual GA activity, the Department should be able to extract data from
   NSLDS by GA or lender, to perform an analysis of the loan receivable data. Routine
   analysis of the GA data per NSLDS would facilitate the Department in monitoring its
   loan receivable balance and the information reported by the GAs on the Form 1130.

• We noted that the Office of Vocational and Adult Education (OVAE) does not have a
   systematic method for monitoring compliance with the Carl D. Perkins Vocational and
   Applied Technology Education Act (hereafter referred to as the Perkins Act). The
   Perkins Act is the legislation under which OVAE operates and delivers Basic Grants to
   states totaling approximately $1 billion during fiscal year 1998.

   In addition, based on discussion with OVAE management, it was noted that there will
   not be a systematic monitoring plan for fiscal year 1999. OVAE intends to focus on
   helping states implement the new legislation, which was enacted in October 1998.
   However, for fiscal year 1998, there was no monitoring in place for compliance with
   prior legislation. OVAE did participate in the Department-wide Program Coordinated
   Review Teams and site visit some states, however, these visits did not address
   compliance issues. OVAE plans to develop monitoring procedures and begin piloting
   them for the end of fiscal year 2000. By fiscal year 2001, all procedures should be in
   place.

• According to a recent report issued by the Office of Inspector General (OIG), (Audit
   Control Number 06-70004), students with defaulted student loans and with grant
   overpayments have received additional student financial aid (SFA). In addition, the
   OIG issued a report in June 1999 regarding “Improving the Process for Forgiving
   Student Loans” in which it identified control weaknesses in the current system for
Report on Internal Control
Page 18

   determining borrower eligibility for the disability or death discharge. The report
   indicated that student loans are being discharged for total and permanent disability and
   death, even though the borrowers are apparently not totally and permanently disabled
   or deceased. The OIG also found that new loans are being awarded to borrowers who
   returned to school after previously having loans discharged due to total and permanent
   disability.

Recommendations:

We recommend that the Department of Education perform the following:

1. Monitor the submission of reports to the Single Audit Clearinghouse in order to know
   when GLOS should expect to receive a report. GLOS also needs to monitor the year-
   ends of the GAs to determine when a report is due and check with the clearinghouse
   to determine if the report was submitted by the due date. This will facilitate GLOS’
   ability to initiate follow-up more timely.

2. Continue to work with the Clearinghouse to identify missing Single Audit reports and
   ensure that audit reports are received within the two months timeframe. IPOS
   completed a project this year to send letters to all IPOS institutions with overdue
   reports. The Department, and its divisions, should continue their efforts to more
   strictly enforce the submission requirements for Single Audits, such as impose
   authorized penalties if the audits are not received within the required timeframe.

3. More strictly enforce the requirements as stated in the Lender Audit Guide.
   However, we noted that GLOS imposes penalties on lenders who do not submit their
   report by the six month deadline. After a first notice, any lender who has not
   submitted a required report is issued a second notice stating that GLOS will begin
   withholding interest subsidy and special allowance payments. A small number of
   lenders (approximately twelve) were cut-off in fiscal year 1998, but all eventually
   submitted their reports. Since a relatively effective system is in place to enforce report
   submission, we recommend that GLOS consider imposing such penalties more quickly.

4. Strive to develop monitoring procedures that ensure compliance with provisions of the
   Perkins Act, and are capable of being conducted using the available resources of the
   Office of Vocational and Adult Education (OVAE). This could be accomplished by
   using an annual mail-in review process with a site visit every five years, or
   teleconferencing for staff interviews, so that there is personal communication between
   the reviewers and agency personnel. It seems that there may be several ways that
   monitoring can be accomplished using methods other than the traditional site visit.

5. Have a supervisor analyze and approve the field review report upon completion of an
   Impact Aid field review. According to Impact Aid management, a senior analyst
   should compare the field review to the input data used in generating the payment
Report on Internal Control
Page 19

   amount. However, we noted that this did not occur in this instance. We recommend
   that management ensure that this quality control procedure is completed on a
   consistent basis.

6. Appropriately address the recommendations in the OIG reports, “Applicants with
   Defaulted Student Loans Continue to Receive Student Financial Aid” (ED-OIG/A06-
   70004) and “Improving the Process of Forgiving Student Loans” (ED-OIG/A06-
   80001).

6. Insufficient Controls Surrounding Accounts Receivable/Cash Receipts

During our testing of accounts receivable and cash receipts, we noted several issues. The
following are examples of the issues we encountered:

• We were unable to substantiate the Other Accounts Receivable account balance
  because the Department was unable to provide sufficient supporting documentation
  and a subsidiary ledger. For the limited documentation provided, the Department was
  unable to provide adequate explanations to support the accounts receivable balance.
  For example, we were unable to obtain sufficient explanations or support pertaining to
  the facilities loans receivable allowance.

   The lack of supporting documentation presents an internal control weakness that
   management needs to address. Inadequate controls surrounding accounts receivable
   expose the Department to the risk of invalid transactions occurring without detection.

• During our cash receipts testing, we reviewed bank deposit tickets, deposit log sheets,
  and a query of FMSS. In comparing the dates on the supporting documentation, we
  noted that the checks were not being posted to FMSS in a timely manner. For
  example, checks that were received and deposited in May 1998, were not posted to
  FMSS until October 1998. Through inquiry of OCFO personnel, we noted that the
  time lag in posting the cash receipts was due to the office’s inability to process its
  workload in a timely manner as there was a lack of resources. We were informed that
  the OCFO was “backed-up” and that they were processing the oldest deposits first.
  Delays in posting cash receipts resulted in inaccuracies in the Department’s Cash
  account. According to data provided by the OCFO, the Cash account balance for
  fiscal year 1998 was understated by approximately $4.3 million.
Report on Internal Control
Page 20

Recommendations:

The Department of Education should perform the following:

1. Review its system requirements so that the Department can produce subsidiary ledgers
   in a timely manner, and substantiate all accounts receivable transactions.

2. Enhance current policies and procedures to ensure that accounts receivable and related
   cash receipts are properly recorded. The policies and procedures should address, at a
   minimum, aging of the receivable, required supporting documentation, and a
   methodology for determining an allowance. In addition, procedures should require
   that cash receipts be recorded in the general ledger on a more timely basis, but at least
   monthly. Training should be provided to individuals responsible for performing
   functions surrounding accounts receivable.

7. The Department Needs to Establish Controls Over the Analysis and Reporting of
   Performance Measures (Repeat Condition)

Congress enacted the Government Performance and Results Act (GPRA) of 1993 as a
means to improve the management and accountability of Federal agencies. GPRA
requires executive agencies to prepare multi-year strategic plans, annual performance
plans, and annual performance reports. OMB Bulletin No. 97-01, Form and Content of
Agency Financial Statements, sets forth the format and instructions for the form and
content of agency financial statements. In an effort to consolidate reporting, including the
reporting requirements of GPRA, OMB Bulletin No. 97-01 requires the performance
measures in the overview section of the financial statements, as well as the other
accompanying information, to be consistent with the measures used by agencies as part of
their GPRA implementation efforts. Management’s display of performance information
should include sufficient explanatory information to help readers understand the
significance of the measures, the results and any deviations from goals or plans.

Although the Department has developed a framework for the verification and validation of
its performance indicators, it has not developed a process for assembling and analyzing
data in accordance with OMB Bulletin No. 97-01 and GPRA for financial reporting
purposes. We also noted that adequate guidance was not provided to the program offices
within the Department in order to sufficiently prepare the overview to the Department’s
consolidated fiscal year 1998 financial statements.

Recommendations:

We recommend that the Department of Education establish a process for assembling the
data and other information needed in the overview of the financial statements, which will
ensure that the information is consistent with the Department’s GPRA implementation
Report on Internal Control
Page 21

efforts. The Department should ensure that this process is documented and communicated
to all relevant personnel.

STATUS OF PRIOR YEAR FINDINGS

In the reports on the results of the fiscal year 1997 audit of the Department of Education’s
financial statements, a number of issues were raised relating to internal control. The chart
below summarizes the current status of the prior year items:

   Figure 1: Summary of FY 1997 Material Weaknesses and Reportable Conditions

    Issue Area                     Summary Control Issues                       FY 1998 Status
Loan Estimates for The   The Department needs to establish the validity       Resolved
Department’s Loan        of its principal data store to provide a basis for
Programs (Material       preparing reliable loan estimates in the future
Weakness)                and needs to establish sufficient controls to
                         detect material errors in its loan estimates.
FFEL Program-            The Department needs to complete steps               Partially Resolved -
Guaranty Agency          underway for improving oversight of guaranty         Repeat Condition
Oversight (Material      agencies                                             (Reportable vs
Weakness)                                                                     Material)
Fund Balances with       The Department’s methods for reconciling             Repeat Condition
Treasury (Material       differences between the budget clearing account
Weakness)                (suspense) cash balance and Treasury need
                         improvement
Financial Reporting      Improvements are needed to the financial             Repeat Condition
(Material Weakness)      reporting process so that the Department can
                         meet the GMRA deadline.
Performance Measures     The Department needs to establish controls over      Repeat Condition
(Reportable Condition)   the analysis and reporting of performance
                         measures.
Student Financial        Oversight and analysis of audits of                  Partially Resolved -
Assistance Programs      postsecondary the Departmental institutions          Repeat Condition
(Reportable Condition)   need improvement.
Controls Over            Improvements are required in security over           Repeat Condition
Automated Systems        financial systems and in disaster recovery
(Reportable Condition)   capabilities.


We have reviewed our findings and recommendations with Department management.
They concur with our findings and recommendations and will provide an audit action plan
to the OIG in accordance with applicable Department directives.
Report on Internal Control
Page 22

In addition to the reportable conditions described above, we noted certain other matters
involving internal controls and its operations that were reported to management in a
separate letter dated September 15, 1999.

This report is intended for the use of the management of the Department, OMB, Congress
and the Department’s OIG, and is not intended to be and should not be used by anyone
other than the specified parties.




September 15, 1999
Washington, D.C.
                  Report on Compliance with Laws and Regulations


To the Inspector General
U.S. Department of Education

We were engaged to audit the accompanying consolidated balance sheet of the U.S.
Department of Education (the Department) as of September 30, 1998, and the related
statements of net cost, changes in net position, budgetary resources and financing for the
year then ended, and have issued our report thereon dated September 15, 1999. The
report states that because of the matters discussed therein, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the consolidated
balance sheet as of September 30, 1998, and the related statements of net cost, changes in
net position, budgetary resources, and financing for the year then ended.

The management of the Department is responsible for complying with laws and
regulations applicable to the agency. As part of obtaining reasonable assurance about
whether the agency’s financial statements are free of material misstatement, we performed
tests of its compliance with certain provisions of laws and regulations, noncompliance with
which could have a direct and material effect on the determination of financial statement
amounts and certain other laws and regulations specified in Office of Management and
Budget (OMB) Bulletin No. 98-08, Audits of Federal Financial Statements, as amended,
including the requirements referred to in the Federal Financial Management Improvement
Act (FFMIA) of 1996.

The results of our tests of compliance disclosed the following instances of noncompliance
with laws and regulations discussed in the preceding paragraph that are required to be
reported under Government Auditing Standards or OMB Bulletin 98-08, as amended.

The Department did not comply with all of the requirements included in the Chief
Financial Officers Act of 1990, as expanded by the Government Management Reform Act
of 1994. Specifically, the Department did not submit fiscal year 1998 audited financial
statements to OMB by March 1, 1999, the statutory deadline.

Under FFMIA, we are required to report whether the Department’s financial management
systems substantially comply with the Federal financial management systems requirements,
Federal accounting standards, and the U.S. Standard General Ledger at the transaction
level. To meet this reporting requirement, we performed tests of compliance using the
implementation guidance for FFMIA included in Appendix D of OMB Bulletin 98-08.
Report on Compliance with Laws and Regulations
Page 2
The results of our tests disclosed instances where the Department’s financial management
systems did not substantially comply with the requirements discussed in the preceding
paragraph. The Report on Internal Control includes information related to the financial
management systems and accounting standards that were found not to comply with the
requirements, and presents relevant facts pertaining to the noncompliance and our
recommendations related to the specific issues. Specifically, it was noted that the
Department lacked adequate financial management systems, reports and oversight to
prepare timely and accurate financial statements.

Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit and, accordingly, we do not express such an opinion.

This report is intended for the use of the management of the Department, OMB, Congress
and the Department’s OIG, and is not intended to be and should not be used by anyone
other than the specified parties.




September 15, 1999
Washington, D.C.
